IN THE SUPREME COURT OF THE UNITED STATES

Petitioner, Khai Quang Bui
v.
Respondent, Abdul Alshaer
PROOF OF SERVICE
I certify under penalty of perjury that the foregoing is true
and correct. Executed on July 8, 2021. Khai Bui, petitioner
certify that the respondent has been served before the time
of filing. Sefton Smyth counsel of record for Abdul Alshaer
was served a copy of the petition for writ of certiorari on
81/2 x 11 inch format, a copy of appendix on 81/2 x 11 inch
format, a copy of certificate of compliance and a copy of a
proof of service. Service was made to Sefton Smyth address
through USPS priority mail at a Mclean, VA post office. I
1

.ill 1 3

.WZajgSL

hand the priority mail package contains those documents
to the post office. Priority mail was postage and address to:
Sefton Smyth 32 W. Baltimore Street P.O. Box 944

Funkstown, MD 21734.

t^AaJku 7-8-202.1
Khai Bui
1124 Duchess dr Mclean, VA 22102
Email: akhaibui@vahoo.com
Number: 571-389-0693

2

Document Name: PROOF OF SERVICE
State of Virginia
County of Fairfax
Subscribed and sworn before me on
, 2021, by \ihdi. C^uo v^

day of
who

personally appeared before me and (is personally known to
me or whose identity was proved on the basis of
satisfactory evidence) to be the person whose name is
subscribed to in this document.

nermine sabri fahim saad

^>f

-Oi gi/

notary public
COMMONWEALTH OF VIRG|N'A
MY COMMISSION EXPIRES FEB. 28, 2023
COMMISSION # 7832439______

My commission expires: feta- 1% / 202J1
Official Seal
Personally known

OR
Type of identification

Produced identification
produced

_LiCe\*c«

3

